                                Office of Inspector General

                                U.S. Department of Homeland Security
  DEPARTMENT OF HOMELAND SECURITY
                                Washington, DC 20528




      Office of Inspector General


   The DHS Process for Nominating Individuals 

     to the Consolidated Terrorist Watchlist 





OIG-08-29                      February 2008
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                       February 28, 2008


                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the DHS process for nominating individuals to
the consolidated terrorist watchlist. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 



Executive Summary ...............................................................................................................................1 


Background ............................................................................................................................................2 


Results of Review ..................................................................................................................................4 

       Two DHS Components Have Developed Policies and Guidance on Nominations...................4 

       DHS’ Management of Component Nomination Activities........................................................8 

       Recommendations....................................................................................................................11 

       Management Comments and OIG Analysis ............................................................................12 



Appendices
     Appendix A: Purpose, Scope and Methodology............................................................................14
     Appendix B: Management Comments to the Draft Report ...........................................................15
     Appendix C: Memorandum of Understanding Between Inspectors General of the
                 Intelligence Community ...........................................................................................16 

     Appendix D: Major Contributors to this Report ............................................................................21 

     Appendix E: Report Distribution ...................................................................................................22 


Abbreviations
     CBP              United States Customs and Border Protection 

     DHS              Department of Homeland Security 

     FBI              Federal Bureau of Investigations 

     I&A              Intelligence and Analysis       

     IC               Intelligence Community            

     ICE              Immigration and Customs Enforcement 

     JTTF             Joint Terrorism Task Force 

     NCTC             National Counterterrorism Center 

     ODNI             Office of the Director for National Intelligence 

     OIG              Office of Inspector General 

     POE              Port of Entry 

     TECS             Treasury Enforcement Communications System

     TIDE             Terrorist Identities Datamart Environment 

     TSA              Transportation Security Administration         

     TSC              Terrorist Screening Center 

     USCIS            United States Citizenship and Immigration Services 

     US-VISIT         United States Visitor and Immigrant Status Indicator Technology 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Office of the Director of National Intelligence requested Inspectors
                   General of the Intelligence Community to review their organizations’
                   processes for making nominations to the consolidated terrorist watchlist. The
                   Inspectors General undertook to answer six questions related to the
                   nominations process in their agency:

                       1.	 Are processes and standards for nominating individuals consistent,
                           articulated in policy, and understood by nominators;
                       2.	 Is there a quality control process in place;
                       3.	 Is responsibility for watchlist nominations clear, effective, and
                           understood;
                       4.	 Have nominators receive adequate training, guidance, and information
                           on the nominations process;
                       5.	 Do agencies maintain records of their nominations to the National
                           Counterterrorism Center and Terrorist Screening Center; and
                       6.	 Are organizations with terrorism, counterterrorism, and domestic
                           counterterrorism information appropriately participating in the
                           nominations process?

                   The Department of Homeland Security has made very few nominations to the
                   consolidated terrorist watchlist because its components are rarely originators
                   of derogatory information linking persons to terrorist activities. U.S. Customs
                   and Border Protection and Immigration and Customs Enforcement combined
                   have submitted less than one percent of all nominations made to the
                   consolidated terrorist watchlist since 2005. Although the Department of
                   Homeland Security does not have an overarching policy on making
                   nominations to the consolidated terrorist watchlist, Customs and Border
                   Protection and Immigration and Customs Enforcement have developed and
                   implemented processes for making nominations.

                   Other Department of Homeland Security components would like to contribute
                   to the consolidated terrorist watchlist by providing information that could be
                   used to update existing nominations. The Department of Homeland Security
                   can better manage its nomination process to ensure information is provided to
                   the National Counterterrorism Center.

                   We are making two recommendations to enhance the Department of
                   Homeland Security’s overall participation in nominating individuals to the
                   consolidated terrorist watchlist.


           The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 1 

Background
                Executive Order 12333, “United States Intelligence Activities” dated
                December 4, 1981, requires all government agencies and departments
                involved in intelligence activities to provide the President and the National
                Security Council with intelligence information to protect the United States
                from security threats. Government agencies and departments within the
                executive branch that have a national intelligence mission are collectively
                called the Intelligence Community (IC). Members of the IC include:

                         •   Director of National Intelligence
                         •   Under Secretary of Defense for Intelligence
                         •   Air Force Intelligence
                         •   Army Intelligence
                         •   Central Intelligence Agency
                         •   Coast Guard Intelligence
                         •   Defense Intelligence Agency
                         •   Department of Energy
                         •   Department of Homeland Security
                         •   Department of State
                         •   Department of the Treasury
                         •   Drug Enforcement Administration
                         •   Federal Bureau of Investigation
                         •   Marine Corps Intelligence
                         •   National Geospatial-Intelligence Agency
                         •   National Reconnaissance Office
                         •   National Security Agency
                         •   Navy Intelligence

                More recently, Executive Order 13354, “National Counterterrorism Center”
                dated August 27, 2004, requires all government agencies that possess or
                acquire non-domestic terrorism and counterterrorism information to
                immediately notify the National Counterterrorism Center (NCTC). The
                NCTC serves as the primary organization in the United States Government for
                integrating and analyzing intelligence pertaining to terrorism and
                counterterrorism. NCTC is the principal advisor to the Office of the Director
                of National Intelligence (ODNI) on intelligence activities, and is responsible
                for developing strategic operational plans for counterterrorism activities. The
                NCTC receives information through nominations made by federal agencies. It
                is not necessary for an agency to be a member of the IC to make nominations.
                Nomination information is placed in the NCTC central repository system, the
                Terrorist Identities Datamart Environment (TIDE).



        The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                            Page 2 

                          Pursuant to Homeland Security Presidential Directive 6, the Department of
                          Justice Terrorist Screening Center (TSC) is responsible for maintaining a
                          consolidated terrorist watchlist. The TSC uses international information from
                          the NCTC TIDE system and domestic intelligence from the Federal Bureau of
                          Investigation (FBI) to develop the watchlist. The TSC also provides updates
                          on terrorists to operational systems used by other government agencies for
                          screening purposes.

                          At the request of ODNI, 11 Inspectors General agreed to coordinate a review
                          on the processes for nominating individuals to the consolidated terrorist
                          watchlist.1 Formalized in a March 19, 2007, Memorandum of Understanding,
                          six objectives related to the nominations process were identified:

                                     1.	 Are processes and standards for nominating individuals
                                         consistent, articulated in policy, and understood by nominators;
                                     2.	 Is there a quality control process in place;
                                     3.	 Is responsibility for watchlist nominations clear, effective, and
                                         understood;
                                     4.	 Have nominators receive adequate training, guidance, and
                                         information on the nominations process;
                                     5.	 Do agencies maintain records of their nominations to the NCTC
                                         and TSC; and
                                     6.	 Are organizations with terrorism, counterterrorism, and domestic
                                         counterterrorism information appropriately participating in the
                                         nominations process?

                          Nominations made by the FBI, Department of State, Defense Intelligence
                          Agency, and Central Intelligence Agency encompass more than 95% of the
                          nominations made to the watchlist. DHS has made less than one percent of all
                          nominations to the watchlist since 2005. However, DHS is a major consumer
                          of nomination information. There are many DHS components that use
                          watchlist information daily. For example:

                              •	 U.S. Customs and Border Protection (CBP) processes approximately
                                 1.1 million passengers and pedestrians every day at ports of entry
                                 (POE). Watchlist information is used to determine their admissibility;
                              •	 U.S. Immigration and Customs Enforcement (ICE) coordinates
                                 investigations of watchlisted individuals with the FBI to ensure a
                                 unified approach that might lead to the apprehension of individuals of
                                 interest and their associates;
                              •	 U.S. Citizenship and Immigration Services (USCIS) receives
                                 approximately 6 million applications and petitions a year. All
                                 information is considered, especially for individuals on the watchlist,

1
    Appendix C.

                  The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                                      Page 3 

                         when adjudicating applications to grant immigration benefits or
                         citizenship; and
                      •	 Transportation Security Administration (TSA) checks the watchlist
                         against passenger manifests for more than 50,000 commercial flights a
                         day to ensure only permissible persons are allowed to fly.

Results of Review
     Two DHS Components Have Developed Policies and Guidance on
     Nominations
                  DHS does not have a management directive, quality control process, or
                  training program for the nominations process. Officials at DHS said there is
                  no plan to develop a management directive on the nominations process
                  because the department rarely owns originating information. However, some
                  DHS components, such as CBP and ICE, have developed guidance for their
                  respective offices.

                  DHS collects a small amount of information that links an individual to
                  terrorism or terrorist activities. CBP and ICE are the main contributors of this
                  information. The CBP National Targeting Center serves as a clearinghouse
                  for CBP and ICE nominations, and as a resource for DHS law enforcement
                  efforts. In December 2003, ICE assigned special agents to the CBP National
                  Targeting Center to assist in coordinating border activities. In January 2005,
                  the ICE Office of Investigations established a permanent ICE Liaison Section
                  to the targeting center and provided continuous support and investigative
                  coordination regarding terrorist threats to the United States and U.S. interests
                  abroad.

                  The targeting center is staffed by personnel from several DHS offices and has
                  liaison relationships with many law enforcement and intelligence agencies,
                  such as the FBI. While the various workgroups within the targeting center
                  perform many different support roles, CBP and ICE personnel at the center
                  manage nominations from their agencies to the NCTC, where if approved,
                  they are entered into the TIDE system. The TIDE system is maintained by the
                  NCTC and serves as a central repository for all information on known or
                  suspected international terrorists with the exception of purely domestic
                  terrorism information. A subset of the identifying information contained in
                  TIDE is transmitted to the TSC for inclusion in the consolidated watchlist.
                  The names and identifiers are then transmitted from the TSC to the Treasury
                  Enforcement Communications System (TECS) for use at the POEs.

                  CBP officers inspect all individuals arriving at a POE seeking admission into
                  the United States. The officer queries TECS from his or her post at the POE


          The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                              Page 4 

        to determine whether the individual appears to match a watchlist record.
        When an individual being inspected appears to have a matching record, the
        event is referred to as a TIDE encounter, and the officer is required to contact
        the targeting center. The targeting center coordinates with the TSC to
        determine if the arriving traveler is indeed the watchlisted person. When
        additional or corrected information is collected from a TIDE encounter at a
        POE, the new information is sent to the NCTC. The proper procedures for
        encounters with known or potential terrorists are detailed in CBP and ICE
        agency memoranda.

        CBP Policy

        CBP processed all of its nominations for the watchlist through the targeting
        center. The final determination of the identity resolution is performed by the
        TSC in consultation with the targeting center. The FBI has jurisdiction to
        investigate terrorism in the United States. When individuals with suspected
        terrorist connections are identified by CBP at POEs, the information must go
        to the FBI. The normal procedure is for CBP to notify the Joint Terrorism
        Task Force (JTTF). In these instances CBP will not make a nomination
        because the FBI will process the nomination through the NCTC.

        On September 12, 2006, CBP provided a directive to its field offices. The
        directive lists the targeting center as the focal point for CBP operational
        coordination with the TSC, NCTC, and the FBI National Joint Terrorism Task
        Force. Additionally, the directive provided detailed protocols for CBP
        officers to make nominations or to provide updated information to the
        watchlist through the targeting center. The directive also establishes and
        regulates the activities of CBP counter terrorism Response Teams at the
        POEs. These teams are responsible for handling TIDE encounters and
        coordinating their activities with the targeting center and other law
        enforcement agencies.

        To determine CBP awareness of and participation in the nominations process
        we questioned the managers of the eight CBP divisions responsible for
        operations. We did not speak to managers of support divisions such as
        training. As shown in Figure 1, all but one official understood the CBP
        process for nominating individuals to the watchlist. Staff from offices
        responsible for making nominations, such as the Office of Field Operations,
        told us that a quality assurance process was in place through the national
        targeting center review process, ensuring only quality recommendations are
        made to the watchlist. Furthermore, even officials generally uninvolved in
        nomination activities understood CBP has a policy for nominating known or
        suspected terrorists to the watchlist.




The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                    Page 5 

        Figure 1: Questionnaire Results from CBP Operational Offices

                                           Office        A quality
                                        responsible       control          Has           Has
                          Aware of      for making        process       guidelines    received
                         nomination     nominations      exists for     regarding     sufficient
                           process        is clear      nomination     nomination      training
           Air and
                             Yes             Yes            N/A            Yes           No
            Marine
           Office of
             Field           Yes             Yes            Yes            Yes           No
          Operations
           Traveler
          Security &         Yes             Yes            Yes            Yes           No
          Facilitation

            Border           Yes             Yes            Yes            Yes           No
            Patrol

           Container         Yes             Yes            N/A            Yes          N/A
           Security

          Operations         Yes             Yes            Yes            Yes           No

           Cargo and
          Conveyance          No             No             N/A            Yes          N/A
            Security
          Agriculture
           Programs          Yes             Yes            Yes            Yes          Yes
          and Liaison

        CBP recently developed a draft policy to supplement existing directives. With
        the finalization of the policy, CBP will have the most comprehensive process
        throughout DHS for coordinating watchlist nominations. This draft policy
        will explain the criteria for nominating, and for approving the transmission of
        information to the targeting center. It includes a process for POE and
        targeting center supervisors to review nominations before being sent to the
        NCTC (Figure 2).




The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                    Page 6 

                         Figure 2: Draft CBP Nomination Review Process




                                                                  NCTC


                                                                    NTC



                                                             CBP Director of
                                                             Field Operations


                                                                   CBP
                                                           Supervisory Officer


                                                                CBP Officer




                         ICE Guidance

                         ICE agents in the United States did not make any nominations to the watchlist.
                         The Department of Justice has the jurisdiction for investigating and
                         prosecuting domestic terrorism cases while ICE is responsible for enforcing
                         immigration and customs laws.2 Not having domestic jurisdiction over
                         terrorist-related cases reduces the occasions ICE would have to make
                         watchlist nominations. ICE agents overseas can, and do, make nominations
                         directly to the NCTC. However, ICE is represented on the JTTF and any
                         derogatory information ICE develops about individuals who could be
                         nominated, is submitted through the JTTF.

                         ICE has published three memoranda that affect nominations to the watchlist.
                         The first, in September 2004, provided a nomination memorandum to all
                         Special Agents-in-Charge and Deputy Assistant Directors in the Office of
                         Investigations. This memorandum detailed interim operating procedures that
                         mandated all “positive and possible” TIDE encounters be reported to the ICE

2
 Department of Justice – National Security Division “Combat Terrorism,”
http://www.usdoj.gov/whatwedo/whatwedo_ct.html.

                 The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                                     Page 7 

             targeting center representative. This memorandum also documents the
             coordination between ICE and the FBI through the JTTF.

             A second memorandum, in March 2005 required that all subjects for watchlist
             nominations be submitted through the JTTF. For cases requiring immediate
             action, ICE mandated coordination through the targeting center (Figure 3).

             Figure 3: ICE 2005 Procedures




             More recently, in an April 2007 memorandum, ICE officers are required to
             track the amount of time spent working on national security cases with the
             JTTF. ICE will then be able to quantify the actual time spent on
             counterterrorism activities that support national security investigations related
             to TIDE encounters. ICE is currently working to formalize an agency
             directive that will incorporate previously published memoranda into a
             formalized policy for the field.


DHS’ Management of Component Nomination Activities

             Only two DHS components–U.S. Coast Guard and Intelligence and Analysis
             (I&A)–are members of the IC. Many DHS components outside of the IC
             would also like to provide additional information on existing nominations.
             DHS components in general have difficulty finding answers to their questions
             about nominations and obtaining information on the nomination process. Of
             the officials we interviewed, only staff from CBP and ICE were able to
             describe how to make a nomination. Without clarification on the type of
             terrorist information the NCTC is seeking and a method to provide it, DHS
             components do not know how to make or enhance watchlist nominations.
             DHS needs a single point of contact for nominations to coordinate overall
             nomination activities, ensure proper distribution of nomination-related
             information to all DHS components, and clarify nomination criteria.


     The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                         Page 8 

        Coordination of DHS Nominations

        DHS components have information that could be used to make or update
        nominations to the watchlist. Providing the information to the NCTC is
        challenging and many components are providing updates on nominations
        through informal methods. We interviewed staff from 11 DHS components to
        identify the most appropriate entity for coordinating DHS nominations. All
        but one perceived I&A to be the natural lead for developing nomination
        procedures.

        For example, the Office of Counternarcotics Enforcement is responsible for
        coordinating DHS efforts to track and sever connections between drugs and
        terrorism. Staff conduct drug-to-terrorist assessments, collaborate with
        national and local JTTFs, and participate in working groups to facilitate
        information exchange. The office regularly gathers information with a drug-
        to-terrorist connection. If the National Joint Terrorism Task Force needs
        information relating to a potential connection, it calls the Office of
        Counternarcotics Enforcement. Counternarcotics Enforcement staff knew
        about watchlist nominations, but did not know whether any of the information
        they collected was useful to the NCTC.

        TSA collaborates with the Federal Aviation Administration to vet information
        related to terrorism and aviation records. When Federal Aviation
        Administration staff identifies information about known or suspected terrorists
        with pilot licenses, they notify the TSA. TSA staff we interviewed stated the
        information is important to the watchlist but, other than notifying the TIDE
        system record holder, it does not receive feedback on whether the NCTC
        includes it in current nominations.

        USCIS is required to complete a background check on each applicant,
        petitioner, and beneficiary prior to granting an immigration benefit. USCIS
        requests FBI name checks on applications for asylum, lawful permanent
        residence, and naturalization prior to granting immigration benefits. Part of
        USCIS daily operations involves reviewing documents and conducting
        interviews of individuals seeking benefits and their associates. USCIS
        interviewers routinely request updated addresses, biometrical data, and
        information on applicants, their sponsors, and associates. This places the
        agency in a unique position of being able to provide updated information on
        persons already watchlisted, and to learn whether they are in the United
        States.

        I&A is responsible for defining DHS intelligence collection requirements,
        compiling intelligence reports, and providing information to DHS and the IC.
        Staff in I&A receive various intelligence reports from DHS components that
        are written in response to DHS standing collection requirements, and include

The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                    Page 9 

        information ranging from raw data on people and conveyances at POEs to
        final intelligence reports. I&A uses the data from DHS components to write
        intelligence reports for the IC. As previously discussed, CBP and ICE
        coordinate nominations internally through the National Targeting Center.
        I&A could work with the targeting center to identify some best practices and
        methods that would better facilitate operational aspects of nominations for
        DHS. Given I&A’s primacy in DHS for collecting and disseminating
        intelligence, and for managing the DHS interaction with the IC, it would be
        appropriate for I&A to promulgate and manage DHS-wide counterterrorism
        watchlist nomination procedures.

        Clarification and Distribution of Nomination Information

        DHS components have access to additional information that could be provided
        to the NCTC to update and enhance existing nominations. However, there is
        no clear definition of terrorism-related information and no documented DHS
        protocol for ensuring proper distribution of information to all components.

        There are at least three definitions that could be used to define terrorism-
        related information. First, U.S. Code Title 18, Chapter 113B, section 2331(1)
        provides a definition of international terrorism:

                 [T]he term international terrorism means activities that— (A) involve
                 violent acts or acts dangerous to human life that are a violation of the
                 criminal laws of the United States or of any State, or that would be a
                 criminal violation if committed within the jurisdiction of the United States
                 or of any State; (B) appear to be intended— (i) to intimidate or coerce a
                 civilian population; (ii) to influence the policy of a government by
                 intimidation or coercion; or (iii) to affect the conduct of a government by
                 mass destruction, assassination, or kidnapping; and (C) occur primarily
                 outside the territorial jurisdiction of the United States, or transcend national
                 boundaries in terms of the means by which they are accomplished, the
                 persons they appear intended to intimidate or coerce, or the locale in which
                 their perpetrators operate or seek asylum.…

        Second, U.S. Code Title 18, Chapter 113B, section 2331(5) provides a
        definition of domestic terrorism:

                 [T]he term “domestic terrorism” means activities that— (A) involve acts
                 dangerous to human life that are a violation of the criminal laws of the
                 United States or of any State; (B) appear to be intended— (i) to intimidate
                 or coerce a civilian population; (ii) to influence the policy of a government
                 by intimidation or coercion; or (iii) to affect the conduct of a government by
                 mass destruction, assassination, or kidnapping; and (C) occur primarily
                 within the territorial jurisdiction of the United States.

        Third, Homeland Security Presidential Directive 6, “Integration and Use of
        Screening Information” dated September 16, 2003, broadly defines terrorist


The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                   Page 10 

        information as “information about individuals known or appropriately
        suspected to be or have been engaged in conduct constituting, in preparation
        for, in aid of, or related to terrorism....”

        Although neither the NCTC nor DHS has provided guidance on what
        constitutes information related to terrorism, the TSC provided a memorandum
        to I&A and the Office of Policy detailing the nominations process, criteria that
        must be met for a nomination to be accepted, and an expedited process for
        urgent circumstances. The July 2007 TSC memorandum identifies specific
        information the center would like to have on known or suspected terrorists.

        The TSC memorandum was not widely distributed within DHS. Only I&A
        and the Office of Policy received copies. We provided copies to the DHS
        components with whom we met. Most staff said this was the first document
        they had seen outlining a process for making watchlist nominations.
        Knowledge of the correct procedures for making a nomination would enable
        these agencies to provide more complete information to DHS components and
        the IC.

                              T ID E N om in ation P rocess

                A gen cy                  N ation al C ou nter
             N om in ation                T errorism C en ter



                                                                          T errorist
                                              A p p roved             S creen in g C en ter




Recommendations
        We recommend that the Under Secretary for Intelligence and Analysis:

        Recommendation #1: Develop and issue department-wide guidance
        governing the DHS watchlist nomination process.

        Recommendation #2: Develop protocols for sharing NCTC and TSC
        watchlist guidelines with all DHS IC and non-IC components to ensure proper
        inclusion and updating of NCTC information.




The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                   Page 11 

Management Comments and OIG Analysis
        We evaluated the comments prepared by I&A regarding our report and where
        appropriate, made changes to address their concerns. I&A management
        agreed with the report’s findings and our recommendations. A copy of I&A’s
        written comments in its entirety is included as Appendix B.

        In its written response, I&A emphasized the need for DHS to perform
        watchlisting duties effectively and accurately. I&A said that issues related to
        the quality and integrity of watchlisting and the redress process for removing
        names from the watchlist are of “vital importance” and that subsequent
        reviews should be conducted on those subjects. Further, I&A is committed to
        using its analysis of raw data from POEs and daily operations to help ensure
        nominations are correct.

        CBP and ICE provided technical comments for consideration. Where
        appropriate, we made changes to the report to ensure the accuracy of
        information.

        Recommendation #1

        We recommended that the Under Secretary for Intelligence and Analysis
        develop and issue department-wide guidance governing the DHS watchlist
        nominations process.

        I&A Response

        I&A concurred with our recommendation.

        OIG Analysis

        We agree that the action I&A plans to take will satisfy the intent of this
        recommendation. This recommendation is resolved, but remains open pending
        the development, issuance, and our receipt of the department-wide watchlist
        guidance.




The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                   Page 12 

        Recommendation #2

        We recommended that the Under Secretary develop protocols for sharing
        NCTC and TSC watchlist guidelines with all DHS Intelligence Community
        and non-Intelligence Community components to ensure proper inclusion and
        updating of NCTC information.

        I&A Response

        I&A concurred with our recommendation.

        OIG Analysis

        We agree that the action I&A plans to take will satisfy the intent of this
        recommendation. This recommendation is resolved, but remains open
        pending development, issuance, and our receipt of the protocols for sharing
        NCTC and TSC watchlist guidelines with all DHS Intelligence Community
        and non-Intelligence Community components.




The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                   Page 13 

Appendix A
Purpose, Scope and Methodology


                    We reviewed DHS’ activities for making nominations to the consolidated
                    terrorist watchlist. Our objective was to determine whether DHS had
                    participated in the nomination process. To make that determination we
                    evaluated whether DHS had developed a process for making nominations;
                    employed a quality control process for nomination accuracy; ensured the
                    responsibility for making nominations was clear; provided nominators
                    adequate training; and maintained records of nominations. We conducted the
                    review at the request of the Director of National Intelligence.

                    We conducted our fieldwork from July to October 2007. We received
                    briefings from officials at the National Counterterrorism Center and the
                    Terrorist Screening Center. We interviewed DHS officials from 11
                    components: Office of Counternarcotics Enforcement, Customs and Border
                    Protection, Immigration and Customs Enforcement, Office of Intelligence and
                    Analysis, National Protection and Programs, Operations Coordination,
                    Screening Coordination Office, Transportation Security Administration, U.S.
                    Citizenship and Immigration Services, U.S. Coast Guard, and U.S. Secret
                    Service.

                    We also interviewed staff from antiterrorism and intelligence subcomponents:
                    CBP Office of Anti Terrorism, National Targeting Center, and Office of
                    Intelligence; ICE Office of Intelligence; I&A Collection Requirement Office,
                    Homeland Environment Threat Analysis, and Intelligence Watch and
                    Warning. Additionally, we surveyed organizations that made nominations to
                    determine their awareness and participation in the nominations process.

                    We also reviewed component records and documents such as guidance for
                    making nominations, current and planned processes for making nominations,
                    and nominations made to the consolidated terrorist watchlist.

                    Our work was conducted under the authority of the Inspector General Act of
                    1978, as amended, and according to the Quality Standards for Inspections
                    issued by the President’s Council on Integrity and Efficiency.




            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 14 

Appendix B
Management Comments to the Draft Report




            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 15 

Appendix C
Memorandum of Understanding Between Inspectors General of the Intelligence Community


             Regarding the Intelligence Community Inspectors General Forum 


        Review of the Nominations Process for the Consolidated Terrorist Watchlist 



                        Between the Offices of the Inspectors General 


                                                   of 


                         Office of the Director of National Intelligence 


                                   Central Intelligence Agency 


                                       Department of Justice 


                                   Defense Intelligence Agency 


                                     National Security Agency 


                               Department of Homeland Security


                                        Department of State 


                            National Geospatial-Intelligence Agency 


                                   Department of the Treasury 


                                       Department of Energy 





                                     March 19, 2007 

                           Amended and Restated as of May 7, 2007 





            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 16 

Appendix C
Memorandum of Understanding Between Inspectors General of the Intelligence Community



                    I. BACKGROUND

                    Pursuant to Homeland Security Presidential Directive 6, the Terrorist
                    Screening Center (TSC) maintains a consolidated terrorism watchlist that is
                    populated by information from the National Counterterrorism Center (NCTC)
                    and the Federal Bureau of Investigation (FBI). Agencies that possess or
                    acquire terrorism and counterterrorism information, excepting purely domestic
                    counterterrorism information, are required by Executive Order 13354 to
                    promptly give access to such information to the NCTC. The NCTC then
                    provides a subset of that information to the TSC for inclusion on the
                    consolidated watchlist. In contrast, the FBI provides purely domestic
                    counterterrorism information directly to the consolidated terrorism watchlist.

                    The Information Sharing Environment, which is part of the Office of the
                    Director of National Intelligence (ODNI), and was created by the Intelligence
                    Reform and Terrorism Prevention Act of 2004 (IRTPA), is responsible for
                    reporting to Congress on whether there are consistent standards for placing
                    individuals on, and removing individuals from, the terrorism watchlists;
                    whether processes are available for correcting errors in the watchlists; and
                    whether the federal government takes adequate measures to ensure the
                    accuracy of information about individuals on the watchlists.

                    On December 14, 2006, the Intelligence Community Inspectors General
                    (ICIG) Forum agreed to coordinate a review of the processes for nominating
                    individuals to the consolidated terrorism watchlist. The Offices of the
                    Inspectors General (OIGs) of the ODNI, Central Intelligence Agency (CIA),
                    Department of Justice (DOJ), Defense Intelligence Agency (DIA),
                    Department of Homeland Security (DHS), National Security Agency (NSA),
                    National Geospatial-Intelligence Agency (NGA), Department of Energy
                    (Energy), Department of State (State), and Department of Treasury (Treasury)
                    will work together to accomplish this review. This Memorandum of
                    Understanding (MOU) provides the terms of agreements for coordination
                    among these OIGs.

                    II. 	OBJECTIVES

                    The objectives of the review are to ascertain, both within agencies and across
                    the Intelligence Community (IC), whether:

                             1.	 Processes and standards for nominating individuals to the
                                 consolidated watchlist are consistent (both within agencies and
                                 across the IC), articulated in policy or other guidance, and
                                 understood by nominators;



            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 17 

Appendix C
Memorandum of Understanding Between Inspectors General of the Intelligence Community

                             2.	 Quality control processes are in place to help ensure nominations
                                 are accurate, understandable, updated with new information, and
                                 include all individuals who should be placed on the watchlist based
                                 on information available to the agencies;

                             3.	 Responsibility for watchlist nominations is clear, effective, and
                                 understood;

                             4.	 Nominators receive adequate training, guidance, or information on
                                 the nominations process;

                             5.	 Agencies maintain records of their nominations to the NCTC (and
                                 to the TSC, in the case of the FBI), including the source of the
                                 nomination and what information was provided; and

                             6.	 Organizations with terrorism, counterterrorism, and domestic
                                 counterterrorism information in their possession, custody, or
                                 control appropriately participate in the nomination process.

                    III. ROLES AND RESPONSIBILITIES

                    The ODNI OIG will coordinate the work of the OIGs participating in the joint
                    review, review watch list nominations within the ODNI, and examine any
                    cross-agency issues. The ODNI OIG, with the assistance of staff from the
                    NSA OIG, also will conduct a review of watchlisting nominations in the NSA.
                    The DOJ, DHS, DIA, CIA, NGA, Energy, State and Treasury OIGs will lead
                    watchlisting reviews within their respective agencies.

                    To ensure the success of the review, each participant agrees to the following
                    requirements.

                             1.	 This review will focus on issues surrounding the process for
                                 nominating individuals to the terrorism watchlist. Other issues,
                                 such as the quality and integrity of the existing watchlist or the
                                 redress process for removing names from the watchlist, do not fall
                                 within this joint effort. These issues are possible subjects for
                                 subsequent reviews.

                             2.	 The OIGs participating in this ICIG joint effort will assist ODNI in
                                 determining the scope of the joint review.

                             3.	 The OIGs that are conducting watchlisting reviews within their
                                 respective agencies will examine all of the issues within the scope
                                 of the ICIG joint effort. The OIGs’ reviews, however, are not
                                 limited to the scope of the ICIG joint effort.


            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 18 

Appendix C
Memorandum of Understanding Between Inspectors General of the Intelligence Community

                             4.	 The OIGs conducting interviews and collecting information will
                                 document those interviews and information in accordance with
                                 their agency’s respective procedures.

                             5.	 The OIGs that are conducting watchlisting reviews within their
                                 respective agencies will keep the ODNI OIG apprised of
                                 developments and progress in their reviews, and they will provide
                                 the ODNI OIG an opportunity to review their draft reports before
                                 they are finalized and released. They also will have final authority
                                 over the content of their reports.

                             6.	 To the extent possible, monthly meetings will be held by
                                 representatives from each OIG review team to address issues and
                                 share findings. The ODNI OIG will reserve space at the CIA for
                                 these meetings. Each participating organization will bear its own
                                 travel expenses throughout the duration of the review.

                             7.	 With respect to the OIGs whose agencies will be inspected by the
                                 ODNI, the agency OIG will assist the ODNI OIG with identifying
                                 whom to interview and accessing the agency’s workspace. The
                                 ODNI OIG will schedule, conduct, and document interviews of
                                 agency employees.

                             8.	 The ODNI OIG will analyze its findings, as well as the findings of
                                 the OIGs that are conducting watchlisting reviews within their
                                 respective agencies, in a separate report that examines the watchlist
                                 nomination process across agencies. The OIGs that performed
                                 watchlisting reviews within their agencies, the OIGs whose
                                 agencies were inspected by the ODNI as part of this review, and
                                 the heads of agencies to whom the ODNI OIG makes
                                 recommendations will have an opportunity to review the ODNI
                                 OIG’s draft report. The ODNI will not append the reports of the
                                 OIGs that performed watchlisting reviews within their agencies to
                                 its report.

                             9.	 The ODNI OIG will issue its final report analyzing the watchlist
                                 nomination process across the IC to the heads of the departments
                                 and agencies reviewed; IC IG Forum members; officials to whom
                                 recommendations are addressed; the Director of National
                                 Intelligence (DNI); the Director of the National Counterterrorism
                                 Center; the Senate Select Committee on Intelligence and House
                                 Permanent Select Committee on Intelligence (upon approval of the
                                 DNI); the DDNI for Collection; and other officials as appropriate.
                                 If possible and appropriate, the ODNI will issue the report, or a
                                 summary thereof, to the public.


            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 19 

Appendix C
Memorandum of Understanding Between Inspectors General of the Intelligence Community

                             10. The ODNI OIG will be responsible for monitoring compliance
                                 with its report recommendations and will provide a status report to
                                 the ICIG Forum at each meeting of the Forum until all
                                 recommendations are closed.

                             11. The OIGs that are conducting watchlisting reviews within their
                                 respective agencies will be responsible for monitoring compliance
                                 with their report recommendations.

                             12. The ODNI OIG will copy the agency OIG on any correspondence
                                 sent from the ODNI OIG to the agency.

                             13. Each OIG that is conducting a watchlisting review will perform its
                                 own investigations of waste, fraud, abuse, or illegal actions that
                                 may be uncovered during the review. Allegations involving other
                                 agencies will be referred to the appropriate OIG for action.

                             14. The ODNI OIG will issue an announcement letter to the IC
                                 agencies affected by this review.

                             15. This review will be performed in accordance with the President’s
                                 Council on Integrity and Efficiency Quality Standards for
                                 Inspections, January 2005. All participating OIGs must follow
                                 these or higher (e.g., Yellow Book) standards.

                    IV. IMPLEMENTATION AND TERMINATION
                    This MOU shall become binding and enter into force upon signature of all
                    parties. It shall terminate upon implementation of all recommendations from
                    the respective OIG reports. Early termination of this MOU may occur upon
                    the approval of the ICIG Forum. Any OIG may withdraw from the MOU at
                    any time by providing written notice to the ICIG Forum. This MOU shall be
                    dated as of March 19, 2007.

                    V. SIGNATURES
                    The undersigned, whose signatures appear on separate signature pages
                    attached hereto, have reviewed this document and are in agreement with the
                    conditions contained herein.




            The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                               Page 20 

Appendix D
Major Contributors to this Report


                 Douglas Ellice, Chief Inspector

                 Megan McNeely, Lead Inspector

                 Levar Cole, Inspector




             The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist
                                                Page 21
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      Executive Secretary
                      Assistant Secretary for Legislative Affairs
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Policy
                      Under Secretary for Intelligence and Analysis
                      Commissioner of Customs and Border Protection
                      General Counsel
                      DHS OIG Liaison
                      I&A Audit Liaison
                      CBP Audit Liaison
                      ICE Audit Liaison

                      Intelligence Community
                      Director for National Intelligence

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




             The DHS Process for Nominating Individuals to the Consolidated Terrorist Watchlist

                                                Page 22 

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
